No. 19-359
IN THE SUPREME COURT OF THE UNITED STATES

THE LAW OFFICES OF NINA RINGGOLD
AND ALL CURRENT CLIENTS THEREOF
on their own behalves and all similarly
situated persons,
Petitioners,
____________________w____________________
On Petition For Writ Of Mandamus To The
United States Court Of Appeals For The Ninth Circuit And To A Lower
Court Judge Acting As A Single-Judge District Court
____________________w____________________

PROPOSED ORDER ON
EMERGENCY APPLICATION FOR STAY AND INJUNCTION PENDING
DISPOSITION OF PETITION FOR WRIT OF MANDAMUS; PENDING
FILING AND DISPOSITION OF RELATED PETITIONS FOR WRIT OF
CERTIORARI; AND FOR ISSUANCE OF A CERTIFICATE OF NECESSITY BY
THE CIRCUIT JUSTICE

NINA R. RINGGOLD
Counsel of Record
LAW OFFICES OF NINA R. RINGGOLD
17901 Malden St., Northridge, CA 91325
Telephone: (818) 773-2409

1

IT IS HEREBY ORDERED:
1.

The emergency application for stay and injunction pending disposition

of the petition for mandamus; pending filing and disposition of related petitions for
writ of certiorari; and for issuance of certificate of necessity by the Circuit Justice is
GRANTED.
2.

Pending further order of this court all further proceedings identified in

Attachment 1 or any related proceedings are hereby stayed and enjoined. Pursuant
to 28 U.S.C. § 292 (d) and/or 28 U.S.C. § 294 (d) the undersigned Circuit Justice
shall present a certificate of necessity to the Chief Justice of the United States to
designate and assign an out of state three-judge court to address the complaint filed
in The Law Offices of Nina Ringgold and All Current Clients Thereof v. Jerry Brown
et al. USDC (Cal) No. 12-cv-00717-JAM-JFM and to determine the disposition of
the cases of the plaintiffs of this case who have challenged the constitutionality of
Section 5 of California Senate Bill x211, who have objected to the involuntary
waiver of federal rights caused by Section 5 of California Senate Bill x211, and who
have undertaken appropriate steps to attempt to implement a special judicial
election in the State of California.

Dated:___________

________________________________________
Elena Kagan, Associate Justice of
the United States Supreme Court

2

CASES PENDING IN THE UNITED STATES SUPREME COURT
Date
Case Name
USSC Case
Lower Court Status
No.
Case No.
9/18/19
Docketed
9/16/19
Filed

10/15/19
Docketed
8/8/19
Filed

	  

In Re The
Law Offices
of Nina
Ringgold and
All Current
Clients
Thereof
(Petition for
A Writ of
Mandamus)
ASAP Copy
and Print et
al. v. Canon
Solutions
America, Inc.
(Petition for a
Writ of
Certiorari)
[Lack of
remand
order from
federal
court]
	  

United States
Supreme
Court
No. 19-359

United States
Supreme
Court
No. 19-482

United
States Court
of Appeals
No. 17-16269

Pending

United
States
District No.
12-cv-00717JAM-JFM
Cal. Supreme Pending
Court Case
No. S254463
Cal. Court of
Appeal Case
No. B284364,
B286786,
B290367
Los Angeles
Superior
Court Case
No.
PC043358

CASES WITH ANTICIPATED RELATED PETITIONS FOR WRIT OF
CERTIORARI ARISING FROM THE STATE OR FEDERAL COURT
STATE
COURT
Date of
Case Name
Court and Case Number
Petition Due
Judgment
8/28/19
Cornelius Turner v. Cal. Supreme Court Case
11/26/19
Hartford Casualty
No.
Insurance Co. et al. S257525
Petitioners: Law
[Lack of remand
Office of Nina
order from
Ringgold, Nina
federal court]
Ringgold
(Cornelius Turner
recently died and
is not a
petitioner)
9/11/19
TBF Financial I,
Cal Supreme Court
12/10/19
LLC v. ASAP Copy S257643
and Print et al.
Petitioners:
[Clerk failure to
Ali Tazhibi, ASAP
issue summons
Services Inc. dba
on class action
ASAP Copy &
cross-complaint]
Print, Law Offices
of Nina Ringgold,
Nina Ringgold
FEDERAL
COURT
Date of
Case Name
Court and Case Number
Petition Due
Judgment
No
The State Bar of
United States Court of
Petition Before
Judgment
California v. Nina
Appeal for the Ninth Circuit Judgment
Ringgold et al.
No. 19-55518
[Lack of remand
order from on
initial removal]

United States District
Court, Central District of
Cal No. 19-c-v-00301-GWMRW
(no lower state court case
number, administrative
(non-court proceeding)
operating without remand
order from federal
court)(Case Nos. 09-O-13090
et. al (consl).

LISTING OF PENDING CASES INVOLVING VOTING RIGHTS
MEMBERS IN THE STATE OR FEDERAL COURT INVOLVED IN
THE APPLICATION FOR STAY, INJUNCTION, AND PROTECTIVE
ORDER
State
1. Filed: 3/6/03. In re Aubry Family Trust (Los Angeles Superior Court No.
PC043358. (applicant one of holders of representative government claims)
2. Filed: 7/5/07. Karim A. Shabazz v. Federal Express Corporation (Los
Angeles Superior Court Case No. BC373824) (applicant one of holders of
representative government claims)
3. Filed: 8/4/08. ASAP Copy & Print, Ali Tazhibi dba ASAP Copy & Print v.
Canon Business Solutions, Inc.; Canon Financial Services, Inc.; General
Electric Capital Corp.; Hemar, Rousso & Heald LLP (Los Angeles Superior
Court No. PC043358); (Enforcement action: Ali Tazhibi dba ASAP Copy &
Print ; Ali Tazhibi, Azita Daryaram, Masih Tazhibi, Matin Tazhibi v. Canon
Solutions America (Los Angeles Superior Court No. PC043358, Cal. Court of
Appeal Nos. B284364, B286786, B290367, Cal. Supreme Court No. S254463)
(applicant one of holders of representative government claims) [Lack of
remand order from federal court]
4. Filed: 7/22/10. Lisa Turner v. Cornelius Turner USDC Case No. 10-cv5435-VBF-Ex. (complete diversity); Cornelius Turner filed counterclaim and
third party complaint on 10/26/10 in same case. Cornelius Turner v. Hartford
Casualty Insurance Company; The Rule Company, Incorporated; Craig Ponci;
Nadja Silletto, Norma Pierson; Tony Gaitan, Elaine Albrecht; Thornhill &
Associates, Inc. USDC Case No. 10-cv-5435-VBF-Ex. (complete diversity);
Case was realigned and severed requiring involuntary filing in state court
and separation from jointly insured wife (Marian Turner) who remained in
federal court on her separately filed counterclaim and third party complaint
filed on 4/5/11; on 9/15/11 The Rule Company removed the same case severed
back to the federal court. Judge signed transfer order over signature line of
assigned judge. No remand order exists returning to the state court on the
9/15/11 removal of The Rule Company. The following cases in state court
formed without a remand order following The Rule Company’s 9/15/11
removal:

In re Hartford Litigation Cases:
Marian Turner, Lisa Turner v. Hartford Casualty Insurance Company; The
Rule Company, Incorporated; Craig Ponci; Nadja Silletto, Norma Pierson;
Tony Gaitan, Elaine Albrecht; Thornhill & Associates, Inc.; and
Cornelius Turner v. Hartford Casualty Insurance Company; The Rule
Company, Incorporated; Craig Ponci; Nadja Silletto, Norma Pierson; Tony
Gaitan, Elaine Albrecht; Thornhill & Associates, Inc.
(Consolidated) (Los Angeles Superior Court Case No. BC463850, Cal. Court
of Appeal Nos. B248667, B250084, B261032, B256763, Cal. Supreme Court
No. S257525)
[Lack of remand order from federal court]
Related Cases: (Los Angeles Superior Court Case Nos. BC463639, BC463698)
5. Filed: 3/24/11. Dorian Carter v. Tracy Sheen, Nathalee Evans Barnett
(Los Angeles Superior Court Case No. BC458090) (applicant one of holders of
representative government claims); This case was removed on 4/23/19
(United States District Court for the Central District of California No. 19-cv3217-MWF-Ex) [ Removed to federal Court]
VOTING RIGHTS CASE FILED MARCH 21, 2012
(Same day of Suspension of State Court Rules of Court and Court
Reporting Services
6. Filed: 8/8/14. TBF Financial I, LLC v. ASAP Copy & Print (and class
action cross-complaint) ASAP Services, Inc. dba ASAP Copy & Print, Inc. v.
Canon Solutions America, Inc, TBF Financial LLC I; TBF Financial LLC;
CIT Technology Financing Services I, LLC; CIT Technology Financing
Services, Inc.; Citicorp Vendor Finance, Inc. (Los Angeles Superior Court
Case No. PC056074, , Cal. Court of Appeal No. B291897, Cal. Supreme Court
No. S257643) [Clerk failure to issue summons on class action crosscomplaint]
7. Filed: 5/17/17. Enrique Ricardo Vargas et al. v. Melaragno Family Trust
et al. (Los Angeles Superior Court Case No. BC661148)
8. Filed: 8/25/17. Justin Ringgold-Lockhart as Personal Representative et al
v. Providence Health & Services. (United States District Court for the
Central District of California No. 17-cv-06296-SJO-SK)

9. Filed: 11/15/18. Melaragno Family Trust v. Hilario Rivera (Los Angeles
Superior Court Case No. 18STUD11926)
10. Filed: 1/15/19. (Removal and Writ of Habeas Corpus etc.) The State Bar
Of California; Board Of Trustees Of The State Bar Of California; Thomas
Miller Former General Counsel, Vanessa Holton Current General Counsel;
State Bar Court Of California; Jayne Kim Former Chief Trial Counsel, Steven
Moawad Former Chief Trial Counsel, Melanie J. Lawrence Interim Chief
Trial Counsel; Ashod Mooradian, Agustin Hernandez, Ross Viselman Trial
Counsel; Craig Matheny Investigator, Barbara Field Investigator, And Any
Other Alleged Investigator(s); all the above independently and as persons
and/or entities governed under Cal. B&P Code § 6031 (b) v. Nina R.
Ringgold, Esq., Law Offices Of Nina R. Ringgold As Member Of The State
Bar Of California with clients protected Under § § 1-3 Of The Civil Rights Act
of 1866 And Cal. B&P Code § 6001.1 (Eff. 10/2/11) and engaged in action
under Voting Rights Act that seeks a special judicial election in The State Of
California (United States District Court No. 19-cv-003-1-GW-MRW, United
States Court of Appeals for the Ninth Circuit No. 19-555818 (filed 5/7/19)
[Lack of remand order from federal court]
And
Any proceeding arising from or related to In re Nina Ringgold (Non-state
court, Case Nos. 09-O-13090 (Cal. State Bar Ct).
11. Filed: 2/4/19. Justin Ringgold-Lockhart as Personal Representative et al
v. Providence Health & Services et al. (Los Angeles Superior Court Case No.
19STCV04149)
12. Filed: 4/29/19. Justin Ringgold-Lockhart as Personal Representative et al
v. UC Regents et al. (Los Angeles Superior Court Case No. 19STCV14859)
13. Filed: 6/27/19. Justin Ringgold-Lockhart as Personal Representative et
al v. Arash Nikoukari et al. (United States District Court for the Central
District of California No. 19-cv-05601-FMO-AFM)

